<html>
<title> - COUNTERNARCOTICS ENFORCEMENT: COORDINATION AT THE FEDERAL, STATE, AND LOCAL LEVEL</title>
<body><pre>[Senate Hearing 111-108]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-108
 
                     COUNTERNARCOTICS ENFORCEMENT:
                  COORDINATION AT THE FEDERAL, STATE,
                            AND LOCAL LEVEL

=======================================================================


                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
            AND PRIVATE SECTOR PREPAREDNESS AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
50-386                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
MICHAEL F. BENNET, Colorado
                     Kristin Sharp, Staff Director
                 Mike McBride, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Pryor................................................     1
    Senator Ensign...............................................     3
    Senator Bennet...............................................     4

                               WITNESSES
                        Tuesday, April 21, 2009

John Leech, Acting Director, Office of Counternarcotics 
  Enforcement, U.S. Department of Homeland Security..............     5
Frances Flener, Arkansas State Drug Director, State of Arkansas..     7
Douglas C. Gillespie, Sheriff, on behalf of Major Cities' Chiefs 
  Association, Major County Sheriffs' Association and Las Vegas 
  Metropolitan Police Department, Las Vegas, Nevada..............     8

                     Alphabetical List of Witnesses

Flener, Frances:
    Testimony....................................................     7
    Prepared statement...........................................    30
Gillespie, Douglas C.:
    Testimony....................................................     8
    Prepared statement with an attachment........................    37
Leech, John:
    Testimony....................................................     5
    Prepared statement...........................................    23

                                APPENDIX

Maps submitted by Senator Pryor..................................    42
Questions and responses submitted for the Record from:
    Mr. Leech....................................................    44
    Ms. Flener...................................................    53
    Mr. Gillespie................................................    59


                     COUNTERNARCOTICS ENFORCEMENT:



                  COORDINATION AT THE FEDERAL, STATE,



                            AND LOCAL LEVEL

                              ----------                              


                        TUESDAY, APRIL 21, 2009

                                 U.S. Senate,      
             Ad Hoc Subcommittee on State, Local, and      
           Private Sector Preparedness and Integration,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor, Bennet, and Ensign.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. We will go ahead and get the hearing 
underway. Thank you all for being here today. I would like to 
call the hearing to order.
    This hearing is significant for several reasons. It is the 
first hearing of the Subcommittee on State, Local, and Private 
Sector Preparedness and Integration for the 111th Congress. It 
also is the first hearing where Senator Ensign will be the 
Ranking Member. He is on his way here, but he encouraged us to 
go ahead and start. I look forward to working with him and 
helping him work on his agenda as well as making progress 
towards preparedness through the Committee and the 
Subcommittee.
    Welcome, Senator Ensign. Thank you for being here.
    Let me start with a very brief story. Last year, the 
Arkansas State Police made what at the time appeared to be a 
routine traffic stop. As part of that stop, they were given 
permission to search the vehicle.
    The police were given permission to search the vehicle, and 
as they did, they found a hidden compartment with over 40 
pounds of cocaine stashed in the vehicle. And through their 
good police work and also in sharing that information with the 
DEA and, again, a lot of discussions back and forth and 
legwork, the DEA realized that they had the exact same type of 
vehicle somewhere on the West Coast that had been impounded. 
They searched that vehicle and, sure enough, found the very 
same hidden compartment with over $300,000 in cash in it.
    I bring that story up because it is an example of how local 
law enforcement--in this case, the Arkansas State Police--can 
work with the national agencies--in this case, DEA--to get a 
lot of great police work done and make inroads in fighting 
these drug cartels. It is also an example of how the Federal, 
State, and local law enforcement agencies can work together and 
can get great things done.
    Today's hearing is entitled ``Counternarcotics Enforcement: 
Coordination at the Federal, State, and Local Level.'' We have 
three witnesses representing three levels of government. Each 
of them play an important role in our Nation's counternarcotics 
enforcement efforts. I want to thank you all for being here 
today, and I am going to introduce you in just a few moments.
    The purpose of this hearing is to provide an overview of 
the role and mission of DHS' Office of Counternarcotics 
Enforcement (CNE). I hope that we will hear today about the 
level of coordination with other counter-drug programs within 
DHS and the Federal Government, as well as coordination with 
State and local partners. The link between the Federal 
Government, State, and local partners is crucial, in my 
opinion.
    We have all seen the recent news stories and media accounts 
of the escalating violence along the U.S.-Mexico border. This 
violence is attributed to drug trafficking and smuggling, led 
by several of Mexico's most powerful drug cartels. There is a 
poster here that we have put up that shows a map of the 
territory that each of these cartels controls. We got this 
image from The Economist magazine, and I am pleased to say, 
right now at least, that our law enforcement agencies believe 
that most of the violence has not spilled over into the United 
States. It does occur on the Mexican side of the border, but it 
involves mostly Mexican citizens.
    The Federal Government is taking measures to ensure that 
the violence happening on the Mexican side of the border does 
not carry over to the U.S. side. The efforts include, one, 
increasing the number of Border Patrol agents and Customs and 
Border Patrol officers along the border; and, two, the creation 
of Border Enforcement Security Task Forces, called ``BEST 
teams,'' in which various Federal, State, and local partners 
work together in cases such as southbound vehicles' inspections 
and investigation of suspected stash houses; and, three, the 
development of an updated southwest border security strategy, 
which I understand is due out in late April or early May of 
this year.
    State and local governments around the country have also 
taken steps on their own to try to curtail smuggling and 
trafficking operations in their areas. These efforts include 
the High Intensity Drug Trafficking Area program, which is a 
Federal program but is used at the local level, and the 
leveraging of Fusion Center resources to address drug 
trafficking.\1\ The need for State and local partnership is 
highlighted by the findings of the 2009 National Drug Threat 
Assessment, which is produced by the Department of Justice's 
National Drug Intelligence Center. This report identified 230 
cities--and we have a map here at the front of the room on this 
poster,\2\ these 230 cities within the United States that have 
an established Mexican drug-trafficking organization. As you 
can see, these cities are spread throughout the country, so we 
cannot say that this problem is limited to the border region 
with Mexico. This truly is a national problem, and these are 
some of the things we would like to discuss today.
---------------------------------------------------------------------------
    \1\ The map referred to appears in the Appendix on page 42.
    \2\ The map referred to appears in the Appendix on page 43.
---------------------------------------------------------------------------
    With that, I would like to turn the microphone over to my 
colleague from the State of Nevada, whom I welcome as Ranking 
Member. I know you have some agenda items you would like to 
discuss either now or in the future, and I look forward to 
working with you during the 111th Congress.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Well, Mr. Chairman, I appreciate it. We 
have a great friendship, and I know that not only the two of us 
but our staffs will make this a very effective Subcommittee 
here in the U.S. Senate. I look forward to your leadership and 
know that you have grave concerns in a lot of the areas that 
will be before this Subcommittee. And I think that we can have 
a very effective partnership--I know we can, and I look forward 
to the next couple of years working together.
    In today's hearing, I am looking forward to the testimony 
of our witnesses. You mentioned the 230 cities that are 
represented on that map. Three of those cities--Reno, Carson 
City, and Las Vegas--are in my State. Methamphetamine and 
specifically crystal meth produced in Mexico is imported into 
my State, and it has become the principal drug concern of 
Nevadans. Unfortunately, Nevada often serves as a transshipment 
point for various drugs to the central and eastern sections of 
the United States, and I am particularly interested in hearing 
from DHS' Office of Counternarcotics Enforcement on how they 
are working with State and local law enforcement officials to 
combat this drug trafficking.
    And on that note, it is a pleasure that I welcome the 
sheriff from Las Vegas, Sheriff Doug Gillespie. He began his 
law enforcement career with the Las Vegas Metropolitan Police 
Department in 1980 as a police officer, and his promotions 
included sergeant, lieutenant, captain, commander, deputy 
chief, and under sheriff. Sheriff Gillespie assumed the 
position of Sheriff of Clark County leading the Las Vegas Metro 
Police Department, in January 2007. He has a multifaceted 
career which includes many programs he founded, such as Friends 
of Las Vegas, K-9 Foundation, SWAT's Explosive Breaching 
program, and the Executive Leadership Training for Metro 
Supervisory Employees. In 2003, he and former Sheriff Young 
established the Sheriff's Multicultural Advisory Committee. 
Sheriff Gillespie is also the Chair of the Homeland Security 
Committee for the Major Cities Chiefs of Police, which 
represents the 56 largest cities in the Nation, as well as Vice 
President of Major County Sheriffs, representing the top 100 
counties.
    I am pleased that Sheriff Gillespie has agreed to be with 
us today and discuss his role in the Southern Nevada 
Counterterrorism Center and specifically how it addresses the 
interrelated problems of violent crime and drug trafficking. 
Obviously, I am also very interested in effective funding of 
Fusion Centers, and making sure that we are not wasting that. 
Also, that the grants are being done properly and that there is 
not any kind of abuse or fraud or waste going on with any 
because the dollars that we have are so precious. It is a very 
vital role for this Congress to do proper oversight, working 
with the agencies and making sure that those dollars are used 
in a very specific and very efficient manner.
    So thank you for holding this hearing today, and I look 
forward to the testimony of our witnesses.
    Senator Pryor. Thank you, Senator Ensign.
    Senator Bennet, thank you for joining us. Welcome to the 
Subcommittee. Would you like to make an opening statement?

              OPENING STATEMENT OF SENATOR BENNET

    Senator Bennet. Thank you, Mr. Chairman. I have a statement 
that I would like included in the record. I will say that 
Colorado, like Nevada, is a place that shows up on this map in 
many red dots. And having spent the last 2 weeks traveling my 
State, the meth problem is one that people in our rural areas 
in particular are feeling extreme concern. And everywhere I 
went, people said it was getting worse, not better.
    So in this time of limited resources, the cooperation of 
law enforcement at every level of government becomes that much 
more important. So I would be interested to hear our witnesses 
on that, and thank you for being here today.
    Thanks, Mr. Chairman.
    [The prepared statement of Senator Bennet follows:]
                  PREPARED STATEMENT OF SENATOR BENNET
    I am grateful that the three of you are able to appear before us 
today. I would like to thank Senator Pryor for convening this important 
hearing. As a large geographic State with natural barriers to seamless 
State coordination, Colorado depends on coordination between Federal, 
State, and local authorities to keep families safe and go after bad 
actors.
    Colorado has been hit hard by the trafficking and sale of 
methamphetamine, cocaine and marijuana, an overwhelming majority of 
which is trafficked from Mexico. The Department of Justice National 
Drug Intelligence Center recently identified seven cities in Colorado 
as having distribution or supply networks associated with Mexican drug 
cartels or their affiliates. Any problem impacting seven Colorado 
cities is basically impacting our entire State. Given this reality, it 
is important that we ensure that the necessary resources are available 
for programs such as the High Intensity Drug Trafficking Area (HIDTA), 
which has assisted 17 counties in Colorado combat drug trafficking.
    The problem of meth is really a public health problem as much as it 
is a law enforcement problem. Issues such as drug addiction, mental 
illness and disparities in economic opportunity drive this very serious 
problem, which impacts cities and rural areas alike. I believe we must 
conceive of the meth problem as a whole, as we design strategies for 
combating it.
    That said, law enforcement is one of our most important tools. 
Rural law enforcement in particular relies on Federal resources to halt 
the trafficking of methamphetamine. For instance, Colorado has a 
problem with trafficking through secondary roads. I hope the Committee 
and the Obama Administration assigns sufficient gravity to this very 
serious problem impacting smaller cities, towns, and rural areas.

    Senator Pryor. Thank you.
    I will go ahead and introduce the witnesses, and I ask the 
witnesses to, if possible, limit opening statements to 5 
minutes. There is a little red light there that should come on 
as you are getting close to the time limit.
    John Leech is Acting Director of the DHS' Office of 
Counternarcotics Enforcement. He serves as the primary policy 
adviser to the Secretary of the Department, and from 2003 to 
2009, he served as Chief of Staff to the Director of CNE and 
will return to that position when a new CNE Director is 
appointed by the President and confirmed by the Senate.
    Second, we have Frances Flener, who happens to be Arkansas 
State Drug Czar. She was appointed the State Drug Czar by 
Governor Mike Beebe in April 2007. She serves as the 
Chairperson of the Alcohol and Drug Abuse Coordinating Council, 
which oversees the spending of State and Federal dollars on 
alcohol and drug education, prevention, treatment, and law 
enforcement.
    And, third, I am not sure I can add to the sheriff's 
introduction by Senator Ensign, but would you like to say 
anything else about him?
    Senator Ensign. He is a great sheriff. [Laughter.]
    Senator Pryor. Great. Well, if we may, let's begin with 
you, Mr. Leech.

    TESTIMONY OF JOHN LEECH,\1\ ACTING DIRECTOR, OFFICE OF 
   COUNTERNARCOTICS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Leech. Thank you. Chairman Pryor, Senator Ensign, and 
Members of the Subcommittee, thank you for this opportunity to 
appear before you today and provide an update on the activities 
of the Department of Homeland Security's Office of 
Counternarcotics Enforcement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leech appears in the Appendix on 
page 23.
---------------------------------------------------------------------------
    Secretary Napolitano is actively engaged in securing this 
Nation's borders from the violence waged by the drug cartels in 
Mexico and the general threat posed by the flow of illicit 
narcotics. The Secretary has stated that the violence is not 
only a threat internal to Mexico, but it is also a homeland 
security issue in which all Americans have a stake. Our mutual 
security is inextricably linked to our shared border.
    To this end, the Secretary recently announced several 
departmental border security initiatives that call for 
additional personnel, increased intelligence capability, and 
greater coordination with State, local, and Mexican law 
enforcement authorities. My office is and will continue to be 
instrumental in furthering the Department's plans.
    Among many other responsibilities, DHS' Office of 
Counternarcotics Enforcement (CNE) is statutorily charged with 
two primary functions. One is to coordinate counter-drug policy 
and operations between DHS and other Federal departments and 
between DHS and State and local agencies; and, two, to track 
and sever the connections between illegal drug trafficking and 
terrorism.
    CNE along with DOJ's Office of the Deputy Attorney General 
were designated as the executive agents to lead the interagency 
development of the 2009 National Southwest Border 
Counternarcotics Strategy. The strategy focuses on 
substantially reducing the flow of illicit drugs, drug 
proceeds, and associated instruments of violence across the 
U.S.-Mexico border by fully developing specific counter-drug, 
counter-violence actions within 10 threat domains that include 
intelligence and information sharing; at the ports and between 
the ports of entry; air and maritime domains; investigation and 
prosecution; money; the southbound flow of weapons; technology; 
cooperation with Mexico; and tunnels.
    In addition to complementing the Merida Initiative and the 
Southwest Border Violence Plan in terms of strengthening our 
security at the southwest border, the strategy is one component 
of a broader and more comprehensive counter-drug border 
security effort developed by CNE. In 2008, my office submitted 
to Congress the Department's Northern Border and Maritime 
Transit Border Counternarcotics Strategies. These three 
strategies will collectively integrate and synchronize the 
Department's overall ability to respond to changes in drug-
trafficking routes.
    Another overarching CNE responsibility focuses on 
connections between drug trafficking and terrorism. Worldwide, 
illicit drug trafficking generates significant revenue that 
buttresses the infrastructure of organized crime and terrorism. 
CNE is statutorily tasked to track and sever connections 
between illegal drug trafficking and terrorism. Our Drug Terror 
Nexus Division (DTX), works closely with our interagency 
partners--primarily within the Joint Terrorism Task Force 
(JTTF), construct--to collect and analyze information about the 
links between terrorist groups and drug trafficking and to 
target those connections. A critical DTX function is to ensure 
a steady exchange of drug-terror information between the law 
enforcement and intelligence communities at the Federal, State, 
local, and tribal levels of government.
    As part of this effort, our DTX Division is working to 
improve relationships with High Intensity Drug Trafficking 
Areas (HIDTAs), JTTFs, Fusion Centers, and State, local, and 
tribal entities. Less than 2 months ago, we met with key 
personnel from the South Florida HIDTA to establish working 
protocols and to ensure accurate and timely information flow on 
drug-terror issues.
    In addition, at the request of the Director of the Gulf 
Coast HIDTA, CNE senior staff participated in the HIDTA 
Investigative Support Center Managers meeting to establish 
robust interface with HIDTAs nationwide. We will continue to 
foster relationships between various Federal, State, and local 
partners by sharing intelligence related to drug trafficking 
and terrorism and other data related to this evolving threat.
    I will conclude by reflecting back on my experience as the 
CNE Chief of Staff and most recently as the Acting Director for 
the past 5 years. Over this time, it has become readily 
apparent to me that successful counternarcotics efforts cannot 
be solely conducted at the Federal level. Our communities, and 
especially those at our borders, are directly impacted by drug 
trafficking. State, local, and tribal partners have tremendous 
responsibilities, and they possess the expertise since they are 
on the front lines of the fight. I am committed to partnering 
with these colleagues. Only through a combined Federal, State, 
local, and tribal effort, highlighted by robust communication 
and coordination, can this Nation hope to combat illicit 
narcotics activities.
    I thank the Subcommittee and would also like to personally 
thank Ms. Flener and Sheriff Gillespie for all the work that 
they do and for this opportunity to testify today. I look 
forward to answering any of your questions. Thank you.
    Senator Pryor. Thank you. Ms. Flener.

 TESTIMONY OF FRANCES FLENER,\1\ ARKANSAS STATE DRUG DIRECTOR, 
                       STATE OF ARKANSAS

    Ms. Flener. Good morning, Senator Pryor, Ranking Member 
Ensign, Senator Bennet, and honored guests. It is indeed my 
pleasure to appear before you today. On behalf of Governor Mike 
Beebe and our State, I would like to thank this Subcommittee 
for its continued support of counternarcotic enforcement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Flener appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    Senator Pryor, we are grateful for your continued support 
of the men and women in law enforcement. Your first speech as a 
Senator dealt with the importance of continued and increased 
funding for this group. Through your ongoing support and 
dedication to this issue, our State and Nation have both 
benefited, and I wanted to take this opportunity to thank you 
for that leadership.
    Methamphetamine is the No. 1 drug threat in the State of 
Arkansas, followed closely by cocaine and marijuana. 
Pharmaceuticals continue to rise in epidemic proportions within 
the State. Our local meth lab seizures have risen slightly in 
2008; however, most methamphetamine found in Arkansas is now 
produced outside of the State and is being transported into 
Arkansas by Mexico-based poly-drug-trafficking organizations.
    These groups have developed distribution networks that have 
been responsible for a series of drug-related crimes and social 
problems. To compound what Senator Bennet from Colorado stated, 
for instance, my home town of Batesville, Arkansas, was the 
center of a 3-year joint drug-trafficking investigation led by 
the DEA entitled ``Tienda Hielo,'' or ``Ice Store.'' To date, 
it has resulted in 52 arrests, seizures of more than 100 pounds 
of methamphetamine ice, with a street value of over $11 
million, and the dismantling of a drug-trafficking organization 
with ties to a violent Mexico drug cartel.
    This little town of Batesville, Arkansas, is less than 
10,000 in population. However, the investigation was a textbook 
example of multi-agency coordination. Seven Federal, five 
State, 10 local, and four drug task forces were actively 
involved. We are fortunate in Arkansas in having outstanding 
relationships between Federal, State, and local law 
enforcement.
    In February 2008, Arkansas received a tremendous boost in 
its ability to disrupt illicit drug trafficking. With the 
support of you, Senator Pryor, Senator Lincoln, Representative 
John Boozman, Governor Mike Beebe, and the entire congressional 
delegation, four counties in Arkansas were added to the HIDTA 
program as a part of the Gulf Coast HIDTA. We now have two 
initiatives in Arkansas--one in the northwest corner, one in 
the central portion of the State.
    The Byrne-JAG program funds 19 multi-jurisdictional drug 
task forces (DTFs). The size of our local law enforcement 
agencies is so small that most find it impossible to conduct 
proactive drug-related investigations without Federal 
assistance. While this funding for 2009 is expected to 
increase, the optimal effectiveness of the DTFs is in jeopardy 
due to low and reduced staff and low morale. Without the 2009 
increase, some programs would disband, leaving Arkansas 
communities with little or no proactive organized efforts to 
combat drugs.
    If we are to have a robust national drug control strategy, 
we must not cut the resources available for these efforts. 
Federal assistance is the incentive that has caused dramatic 
improvements in cross-jurisdictional cooperation. The impact of 
diluted drug policies and a reduced Federal commitment would be 
devastating to society.
    Senator Pryor, we support your inclusion of the budget 
amendment that calls for expanding the number of counties 
participating in the HIDTA program. Other parts of Arkansas 
desperately need those HIDTA resources to address their own 
drug-trafficking problems. The Byrne-JAG assistance grant 
should be funded at full strength of $1.1 billion as originally 
recommended by the Senate.
    Our Nation's drug problems are extremely complex and will 
not be solved quickly or easily. However, by using a 
comprehensive approach that embraces education, treatment, and 
enforcement, we can dramatically reduce illegal drug usage and 
associated violent crimes.
    Thank you again for the opportunity to testify before this 
Subcommittee, and I will be happy to answer any questions at 
the appropriate time.
    Senator Pryor. Thank you very much. Sheriff Gillespie.

  TESTIMONY OF DOUGLAS C. GILLESPIE,\1\ SHERIFF, ON BEHALF OF 
   MAJOR CITIES' CHIEFS ASSOCIATION, MAJOR COUNTY SHERIFFS' 
 ASSOCIATION AND LAS VEGAS METROPOLITAN POLICE DEPARTMENT, LAS 
                         VEGAS, NEVADA

    Mr. Gillespie. Thank you, Chairman Pryor, Ranking Member 
Ensign, and distinguished Members of the Subcommittee. Today I 
speak for both the Major City Chiefs as well as Major County 
Sheriffs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gillespie with an attachment 
appears in the Appendix on page 37.
---------------------------------------------------------------------------
    Because Las Vegas is home to many of the world's largest 
hotels and a major center of international tourism and 
entertainment, my jurisdiction is continuously mentioned by our 
enemy as a potential target. To counter this well-established 
threat, we have created the Southern Nevada Counter-Terrorism 
Center, which embraces the ``all crimes, all hazards'' fusion 
doctrine. The Fusion Center is comprised of 13 different 
agencies, representing Federal, State, and local government, 
including the private sector in the terrorism prevention.
    In our community, there are over 6,700 private security 
professionals and thousands more valet attendants, 
housekeepers, and bell captains, each poised and capable of 
detecting suspicious behaviors indicating criminal activity. We 
are working to harness this incredible force multiplier.
    To supplement and enhance this ground-level suspicious 
activity reporting, we are participating as a pilot city in the 
Nationwide Suspicious Activity Reporting Initiative, referred 
to as ``SARs.''
    Embracing the intelligence-led policing philosophy within 
the Fusion Center: Within the Fusion Center, we have a robust 
analytical group that focuses on traditional criminal activity 
and crime patterns. These crime analysts scour raw crime data 
looking for patterns and trends, as well as any social 
causative factors.
    Now, narcotics trafficking and associated violence in our 
Fusion Center: Las Vegas has long been considered the 
``crossroads'' for narcotics trafficking between the suppliers 
in Central and South America and the consumers in the United 
States. As the site of a HIDTA, we are on the front lines of 
the war on drugs. With drug trafficking comes the associated 
violence. In October of last year, we found out just how 
ruthless drug traffickers can be. Six-year-old Cole 
Puffinberger was inside his home in Las Vegas when armed 
intruders posing as police officers snatched him away from his 
mother. My detectives quickly learned that young Cole was 
likely abducted because his grandfather owed Mexican drug 
cartels several millions of dollars. As detectives worked to 
locate the young boy, special agents from the FBI and DEA 
worked feverishly to learn more about the abductors and their 
criminal organizations, all of which took place within our 
Fusion Center. The intensity and tenaciousness of the 
investigators paid off when Cole was recovered unharmed 4 days 
later.
    The role of DHS in combating drug-trafficking violence: 
Because Fusion Centers are the heart of Federal, State, and 
local information-sharing efforts, we urge the distinguished 
Members of this Subcommittee to consider this when 
contemplating the role of DHS in countering violence related to 
drug trafficking. We would like to have these information 
channels in place and firmly entrenched within the Fusion 
Centers so we can react quickly and effectively when violence 
related to narcotics trafficking occurs in our community.
    The Department of Homeland Security has a number of 
agencies under its control which have a statutory 
responsibility for the counternarcotics mission. It is critical 
to the Nation's security that the efforts of these various 
agencies are coordinated with the DEA.
    The roles of the respective Federal entities that are 
tasked with this mission have overlap and in some cases 
redundancies. Neither are in themselves a negative; they do, 
however, require coordination at the Federal level. The 
important aspect of this, I believe, is to ensure that the 
respective agencies are focusing their efforts on what it is 
they do best and are best situated to address.
    To further enhance our counternarcotics and 
counterterrorism capabilities, we in Las Vegas are considering 
the options available to us to improve the coordination between 
the Fusion Center and the HIDTA. Among the options are 
exchanges of intelligence analysts, relocating the 
investigative and operational de-confliction function into the 
Fusion Center, and the possible future collocation of the 
Southern Nevada Counterterrorism Center and the Las Vegas HIDTA 
task force.
    On behalf of the Major Cities Chiefs of Police as well as 
Major County Sheriffs Association, I thank this distinguished 
Subcommittee for the opportunity to share our views. Thank you.
    Senator Pryor. Thank you. Sheriff, let me start with you. 
You mentioned Nevada's Fusion Center, which sounds like it is 
very effective and is running the way one should be run. How 
many staff work out of the Fusion Center and from what 
agencies? Could you please discuss its organizational 
structure?
    Mr. Gillespie. We have a total of roughly 60 people that 
actually, I would say, work in what you are referring to as the 
``fusion aspect'' of that particular center. That is the 
analytical people that we rely on day to day to analyze a 
variety of information, from local crime information to 
national and international as well. We have representation 
there from all public safety within southern Nevada.
    Senator Pryor. Including the Federal side?
    Mr. Gillespie. Correct. Yes, we have DHS as well as FBI 
participation.
    Senator Pryor. And you are happy with how the Fusion Center 
operates?
    Mr. Gillespie. Well, I am much happier now than I was a 
number of years ago in regards to the information exchange. We 
are not where we need to be yet. We continually work through 
the obstacles that we find. But I think anytime you place that 
number of individuals in a room, in a building, cross-
jurisdictional and cross-disciplinary--because we have fire in 
that room, we have emergency managers as well. So when you are 
combining all those things, you run into some of these 
territorial-type issues, policy procedural-type issues that you 
have to continually work through. But we are making progress.
    Senator Pryor. Good. And what would you guess is the 
percentage of the workload that relates to drugs?
    Mr. Gillespie. At our Fusion Center, very little right now. 
Actually, the Fusion Center concept, there was not a lot of 
discussion early on about the integration of the narcotics-type 
information. However, I have seen at the national as well as 
the local level, renewed--I should not say ``renewed 
interest,'' but interest in that.
    One example I would give you, Senator, is I happened to be 
participating in a meeting where the Chief of Police of, I 
believe it was, Newark, New Jersey--a gentleman by the name of 
Garry McCarthy--talked about the Fusion Center in New Jersey 
and that they had recently incorporated the narcotics 
information as well as their HIDTA information, and they were 
seeing huge benefit from it; not to mention, as I stated with 
the Cole Puffinberger case, bringing in the DEA in particular, 
with that particular case, because day to day they do not have 
a seat in the Fusion Center, was invaluable to us from the 
resources that they were able to bring to the table.
    I do not mean to go on too long, but in regards to that, 
our HIDTA in particular has just funded an analyst position 
that will now be in our Fusion Center. So I think we definitely 
see the benefits of having that information incorporated into 
our Fusion Centers.
    Senator Pryor. Great. Senator Lieberman yesterday had a 
Committee field hearing in Arizona, and there some of the 
witnesses talked about the obstacles in Fusion Center 
participation. I think the biggest obstacle they focused on was 
funding. They do not have the resources to fully staff and 
fully equip a fusion center.
    What have been the obstacles that you have had with your 
Fusion Center? You mentioned some of the cross-jurisdictional 
turf battles. But what else has been an obstacle?
    Mr. Gillespie. Funding, actually people, and other entities 
willing to give up a full-time position to be at the Fusion 
Center. I have been very fortunate up until, I would say, 
roughly a year ago to have a very robust economy in Las Vegas, 
and my police department was growing, which afforded me the 
opportunity to shift some resources. My counterparts throughout 
Clark County were not quite so lucky.
    So funding continues to be an aspect for us, and I think 
long term one of the challenges that we will see within the 
Fusion Center aspect is that sustainment-type funding because 
the majority of your costs associated with these centers are 
your salary and benefit packages associated with your 
personnel.
    Senator Pryor. Thank you.
    Ms. Flener, in Arkansas we have drug task forces, and they 
have been around for a long time. And we also now, as you 
mentioned in your testimony, have been able to utilize the High 
Intensity Drug Trafficking Area program. How do the drug task 
forces coordinate with the HIDTA effort? How does that work in 
the State?
    Ms. Flener. Well, it appears to be working quite well in 
both places where the HIDTA is physically located. That is in 
the extreme northwest and in the central. But, for instance, 
the Tienda Hielo operation that I mentioned, that brought in 
several of the drug task forces which were not in those 
sections of Arkansas that required that.
    So because Arkansas is small, we work on a very personal-
type relationship. We all know one another, and through that, I 
think we work as well as can be expected. We just need 
additional resources to incorporate the northeastern part of 
Arkansas, which is a tremendous area for methamphetamine 
trafficking.
    I think I mentioned in my written comments that those drugs 
that came in from Mexico came in three hubs in the western part 
of the United States with a population of 4.1 million, and then 
they were transported into a county of less than 30,000 for 
redistribution back to another 4 million.
    So we do have tremendous trafficking problems, and our drug 
task forces need the Federal assistance, dollars and resources, 
to attack those problems.
    Senator Pryor. I think most Senators, it is fair to say, do 
not mind allocating resources if we feel like there is 
accountability and we know that the money is being spent 
properly and is being managed well and being used effectively. 
So from your perspective as a State stakeholder, what 
assurances can you give the Subcommittee here that the HIDTA 
money and the other money that you were able to get from the 
Federal Government is actually being used effectively?
    Ms. Flener. Well, the Gulf Coast HIDTA, of which we are a 
part, has established best practices, and those have been 
adopted. And through the efforts with Tony Soto, we intend to 
put those best practices in place with all of our drug task 
forces as well as the HIDTA initiatives.
    Senator Ensign. Thank you, Mr. Chairman.
    Just to follow up on that, maybe all three of you could 
answer this. I think more specifically what we are looking for 
is metrics. How do we measure effectiveness? We can say that we 
all want more money, we want this, we want that. But it is just 
like job training programs. We have, I think, 13 different job 
training programs in the U.S. Government, and not all of them 
are the same. They use different metrics, and metrics are 
really important whether something is effective or not.
    So under the areas at least under your jurisdiction that 
you are testifying here today, what would you establish as far 
as some of the metrics for this Subcommittee to be able to look 
at and see whether you are using the money effectively? We will 
start with Mr. Leech.
    Mr. Leech. Senator, that is a challenging question to 
answer. I can say that in an indirect way--not specifically on 
the funding of the HIDTAs and the drug task forces--that the 
Southwest Border Counter-Drug Strategy, which I believe--I 
think we submitted a copy to Congress sometime ago of the 2007 
version. I have the 2009 version here that we are in the 
process of finishing up and soon will be putting the 
implementation plan to it.
    When we developed that implementation plan, what you will 
see in the strategy, the counter-drug strategy--and it will 
cover those nine areas that I spoke to earlier--rather, those 
10 domains that I spoke to earlier. Those will have performance 
measurements and metrics attached to the various actions that 
we will be executing along the border. Many of those actions 
have to do with our HIDTAs. As a matter of fact, of the 93 sub-
supporting actions within the strategy to achieve our 
objectives, 24 of those have to deal with our HIDTAs, and those 
various actions--which it is pre-decisional right now, so I am 
not free to discuss it in detail. But of those 24 actions, 
there are metrics and performance measures attached to them.
    Senator Ensign. Before we go to the other panelists, on 
those metrics what is the feeling in DHS as far as the Title 21 
authority specifically that DHS I guess maybe lacks when it 
comes to--the DEA supposedly has full Title 21, and you all do 
not. How do you think that is going to affect your metrics? In 
other words, do you need more flexibility under Title 21?
    Mr. Leech. Senator, I think for ICE to have Title 21 
authority, I think it is a very good idea. Now, I know that 
issue is being worked at very senior levels. The Secretary is 
very interested in trying to work this issue. I think we are 
now, as you know, operating in an environment unlike any 
environment we have ever had in the past, and I think it is 
imperative that we marshal all available resources to fight 
this drug fight. And I think that we have to equip our 
soldiers, our front-line fighters, which includes our ICE 
agents, with every available tool out there to help them move 
the counter-drug effort forward.
    So I think the whole issue of ICE having Title 21 authority 
would be a tremendous benefit for the overall drug fight.
    Senator Ensign. I just raised that point because I think it 
is also. I think that it reminds me a little bit of pre-
September 11, 2001 when we had all of these basically 
stovepipes in our intelligence community, and, Sheriff 
Gillespie, you mentioned the whole turf battles. There will 
always be turf battles, but we need to minimize them whenever 
possible. From what I understand, for ICE, for instance, if 
they have somebody they arrest, and it turns out to be a drug 
problem, they do not have the proper authorities that they 
need, and the bureaucracy basically gets in the way and the 
rules get in the way of effectively protecting our country.
    Mr. Leech. Yes, sir.
    Senator Ensign. So thank you for that.
    Ms. Flener, if you could just address what I had asked, 
basically for specific metrics to--for instance, the Gulf Coast 
HIDTA that you are talking about.
    Ms. Flener. Well, to me that is one of the beauties of the 
HIDTA program. It enables a group of executive law enforcement 
officials to sit down and to adequately outline performance 
goals and what those goals are. And I might make mention that 
in Arkansas, within 6 months of having our HIDTA initiatives up 
and going, we had already met our yearly goals. Now, maybe they 
may have been set somewhat low----
    Senator Ensign. Give me some examples of those yearly 
goals.
    Ms. Flener. Well, with the different types of--well, I am 
just drawing a blank.
    Senator Ensign. That is not a problem. If you could all 
come back to us because we just want to know as a 
Subcommittee--if we are going to judge you on performance, we 
want to know what your metrics are going to be. And we want to 
be able to look at that and have our staffs look at it and see 
whether we think those are also fair metrics, whether we have 
any ideas for other metrics to be involved because we are the 
folks who have to authorize the funding.
    Ms. Flener. Absolutely.
    Senator Ensign. And I like to authorize and appropriate 
funding to things that are being effective, not just because 
somebody likes the idea, but because they are actually being 
effective.
    Sheriff Gillespie.
    Mr. Gillespie. I think if you look at the Fusion concept 
itself and how it has grown since it began being discussed 
after September 11, 2001, it shows at the local and State 
levels a desire to have an efficiency aspect to it. When it 
originally started, it was just homeland security-type 
information that we were looking at exchanged, and we realized 
that we did not just want to put all of our people in that 
building just to do that. We wanted to approach this ``all 
crimes, all hazards,'' have it a robust, 24/7/365-type 
operation, and the different types of information that you 
could exchange.
    I think from a Fusion Center standpoint, what you need to 
do is talk to our customers. Are they getting the information 
that they desire to get? Are you getting the information that 
you need? Is the governor? Are other rural counties, agency 
heads from an information-sharing standpoint?
    From a narcotics-type standpoint, I think you can look at 
the numbers per se that the HIDTAs do produce and that we as 
HIDTAs have to produce in an annual--I do not know if it is an 
annual or biannual actual evaluation where they come out and 
they take a look at your individual HIDTAs and how much 
narcotics have you seized, how many arrests, how many pen 
registers and a variety of other things that they look at. But, 
really, so much of these Fusion Centers is focused on not only 
pushing the information out, but are they user-friendly for the 
information coming in? And I really think if we developed a 
process to talk to our customers and there would be a little 
filtration coming back to you as to our effectiveness, it would 
hold us more accountable to what it is that we are doing as 
well.
    Senator Ensign. Good suggestion. When we look at, for 
instance, the Fusion Centers, you mentioned personnel coming 
from different agencies, and this gets back a little bit to 
turf and whether different agencies think things are important. 
Are you getting the proper level of expertise? And also within 
that, do you think that DEA should have a seat? In other words, 
should we have DEA people within the Fusion Center as well 
permanently?
    Mr. Gillespie. I think from an analytical standpoint, yes, 
the information that they have. And, that is our challenge at 
the local law enforcement level from my perspective, Senator, 
when you are talking about personnel. Because bringing in a 15-
year veteran police officer and placing them in a Fusion Center 
from an analytical standpoint is not necessarily the best way 
to spend your money. There are a lot of people out there that 
have become very good at analyzing this type of information. 
But they do not come cheaply. There is a huge demand for them 
out there. And what we are seeing is people that we may get or 
other Fusion Centers may get, we are losing them to other 
places, based on salary and benefits, not only in the public 
sector but the private sector as well.
    Senator Ensign. But to further answer the question, I 
guess, do you feel comfortable with the expertise that, for 
instance, DHS would put in the Fusion Center or the FBI would 
put in the Fusion Center right now? I know that you have some 
control over the locals, but you do not have a lot of control 
of who DHS puts over there or who the FBI puts over there.
    Mr. Gillespie. Within our Fusion Center, I am very pleased 
with the level of expertise that is there. There is definitely 
at the local level a commitment to giving us quality people 
within the center.
    Senator Ensign. Very good. Mr. Leech, just a final 
question. The whole issue of guns going to Mexico. I think that 
there is no question when the President talks about and when 
Senator Clinton, the Secretary of State, have talked about the 
demand for drugs in the United States certainly drives the drug 
trade. I think we would all agree with that, and we should do 
everything that we can to diminish the demand in the United 
States in every possible way, and I am hoping that the 
President uses his bully pulpit to talk about drugs. The whole 
``Just Say No'' campaign that Nancy Reagan embarked on was 
laughed at, but drug use in the United States dramatically went 
down during the 1980s. And I think that the President can have 
a tremendous role on using the bully pulpit, especially with 
young people, and his influence right now with young people and 
talking about drugs and the danger of drugs and things like 
that.
    But the gun issue itself, the Mexican Government--it has 
been said 90 percent of the guns turning up in Mexico are from 
the United States. From what I understand, the statistic is way 
off. It's my impression that 90 percent of the guns that the 
Mexican Government turns over to us for a background check to 
find out where it came from, and not 90 percent of all guns 
that are seized are turned over. That they only do the ones 
that they know come from the United States, and the vast 
majority--I mean, let us just use common sense. There are other 
countries in the world that produce guns that it is a lot 
cheaper to buy from than it is from the United States where you 
have to get most of these guns illegally in the first place.
    I just visited a wonderful machine gun manufacturer in 
northern Nevada the other day. The controls that we have--and 
this is for military machine guns, obviously. The controls that 
we have in the United States from those weapons manufacturers 
are so strict that to get those weapons is very difficult 
versus buying them from other countries that produce these that 
do not really care and have the kind of responsibility the U.S. 
Government puts on these weapons.
    So if you could get that information so we can share much 
more legitimate numbers, especially when we are talking, in the 
political realm with our neighbors down south, I would 
appreciate that.
    Mr. Leech. Yes, sir, I will. Sir, if I could also comment 
on the issue of guns in a much broader sense in what we are 
trying to do, in particular our office, what our office is 
trying to do. I had mentioned earlier about the Southwest 
Border Counternarcotics Strategy for 2009, which you should be 
receiving soon, hopefully towards the end of April or very 
early May. It is an interagency effort in which our office was 
asked to serve as executive agents with the Deputy Attorney 
General, Office of the Deputy Attorney General, Stuart Nash, 
over at his office. And if you look in a broad sense about what 
the U.S. Government is trying to do to secure the U.S.-Mexican 
border, we try to look at it in terms of three legs on a stool. 
South of the border, we are talking about the Merida 
Initiative, resources going to the Government of Mexico and how 
they can strengthen their law enforcement community. And then 
on our side of the border, we have this, the Southwest Border 
Counternarcotics Strategy. And then the third leg of that stool 
would be a plan, if you will, a strategy, the Border Violence 
Plan, which I believe you may have been briefed on the Border 
Violence Plan. Admiral Rufe is running the operations on that. 
And so we see the security of the border is very dependent on 
those three legs, and if Merida fails, I think this will fail. 
If this fails, Merida is going to fail. Very dependent--as I 
said in my oral, ``inextricably linked,'' the security of our 
border.
    But to get back to address your arms issue, this is a very 
complicated issue, but the wonderful thing about it is that we 
have brought the two primary interagency players to the table, 
which is ATF and ICE, and we have actually produced an arms 
chapter. And I think you will be very proud of what the United 
States of America has put in this document in terms of trying 
to get control of the arms problems and the southbound flow of 
arms going to Mexico.
    So it has been a maturing process over the years. I think 
we have hit our stride, the interagency has hit its stride. I 
think we are making a very concerted, collective, collegial 
effort to get at the heart of the gun problem, and not so much 
concerned about numbers, 80 percent, 90 percent, or what 
percent is traceable, what percent is not as traceable; but to 
really address the gun issue with tremendous respect for the 
Second Amendment rights of every American citizen. And that is 
what we are seeing different in this new strategy that we have 
not seen before, and I think you will be very proud of that.
    Senator Ensign. Just quickly, since you did put that report 
together, are the guns that are coming from the United States, 
are they bought legally? Are they obtained legally or 
illegally, the majority of them?
    Mr. Leech. Sir, I am not an expert. I feel out of my league 
to qualify.
    Senator Ensign. Can you get that answer for us?
    Mr. Leech. Yes, sir, I will.
    Senator Ensign. OK.
    Mr. Leech. I mean, I can tell you in a general--only in 
general terms, a little bit of both. But I can get you exact 
numbers. I am just not qualified----
    Senator Ensign. No. That is fine. As a matter of fact, we 
will have a lot more written questions for all three of you for 
the record, simply because of limited time, and I know I have 
gone way over my time. But I appreciate the indulgence of the 
Chairman.
    Senator Pryor. Thank you very much. Those were great 
questions.
    Let me start with you, Mr. Leech, where you left off. You 
mentioned the Southwest Border Counternarcotics Strategy. Is 
that still scheduled to be released in the April-May time 
frame?
    Mr. Leech. Yes, sir. The strategy itself is with the White 
House now. Our office, CNE, with the Deputy Attorney General, 
as the executive agents, have been working since this past 
summer with the interagency to develop the actual strategy 
itself, roughly 40-something pages. That strategy is up with 
the White House. It will be now interagency vetted through OMB, 
and it will come to you. We will immediately get into the 
implementation planning process, which typically in the last 
strategy, the March 2006 strategy, expanded that basic document 
up to around 260 pages, the implementation portion of it. So 
you not only have a strategy, but you have the implementing 
mechanisms to execute the strategy.
    Senator Pryor. How long will it take you to work on the 
implementation?
    Mr. Leech. Sir, from the time we start--and I anticipate 
once the document is delivered to you--for planning purposes, 
let us say you get it May 1. I hope to have the implementation 
complete, the implementation phase complete, by the end of May.
    Senator Pryor. OK. So it should take you 30 days?
    Mr. Leech. To complete it, but then it goes through the 
coordination process, which is out of our hands at that point 
and is now with the White House and OMB. Yes, sir.
    Senator Pryor. OK. Well, you may have anticipated my next 
question, but as you are preparing the strategy and the 
implementation, who are you working with to do that? In other 
words, is it just your Department? Are you reaching out to 
local folks? Tell us about the perspectives in the room as you 
have these discussions.
    Mr. Leech. Yes, sir. Let us first talk about at the Federal 
level. Of course, virtually all of the DHS law enforcement or 
pseudo-law enforcement agencies within DHS, which would include 
ICE, CBP, U.S. Coast Guard, would include our Policy Office, 
our Intelligence and Analysis, our State and local folks, our 
intergovernmental affairs--that is from the departmental side. 
ODAG, Office of Deputy Attorney General, Stuart Nash will reach 
out to his Justice subordinates and bring those folks to the 
table. And we will go out to the remaining of the interagency. 
ONDCP works with us in corralling the remaining of the 
interagency together. So at the Federal level, we do quite well 
in bringing the entire interagency together.
    Now, we also recognize--and in terms of evolution, when we 
built the first strategy, the 2006 strategy, two people pretty 
much masterminded--or choreographed that strategy, myself and 
Mr. Cronister sitting behind me, the two of us worked overtime 
in trying to bring the interagency together.
    It was a learning process. At that time, we reached out to 
State and local players, but not anywhere near to the extent 
that we have reached out this past effort, this most recent 
effort. We sent out roughly 160 invitation letters to our State 
and local and tribal partners asking for input on the strategy 
itself. Not only that, but Ted Sexton, who is part of our State 
and Local Law Enforcement Office within the Department of 
Homeland Security, I now have partnered with him in biweekly 
teleconference calls with all of our southwest border sheriffs, 
roughly 23 sheriff communities, and State and local folks, 
where we teleconference with them every 2 weeks.
    The most recent meeting was about a week ago where we 
solicited more input from our State and local partners. And if 
you would allow me just to take about a minute, this is an 
example of the feedback that we are getting from our State and 
local partners. This is from Assistant Sheriff Jim Cooke, San 
Diego County. The call went out for the strategy: Please give 
me your input and tell us what you would like to see. What 
would help you do your job in a national strategy? And Sheriff 
Cooke came back, and he said, ``The increased cooperation and 
collaboration among Federal, State, and local enforcement 
agencies to address drug trafficking and drug-related violence 
are encouraging and have established the foundation for the 
kind of integrated and comprehensive approach that is 
necessary.''
    And then he listed specifics. He said, ``I would like to 
see enhanced intelligence capabilities associated with the 
southwest border among all agencies.'' And I can provide you 
his letter, which I have made copies for everyone on the 
Subcommittee. But he goes into further detail. He talks about 
Fusion Centers and information sharing and what needs to be 
done. That is, in fact, we addressed in the strategy.
    He said, ``I would like to see increased interdiction of 
drugs, drug proceeds, associated incidents of violence through 
patrols, land, air, and sea, and checkpoint operations at the 
ports of entry.'' Then he goes on to talk about what San Diego 
County is doing in that area.
    He said, ``I would like you to explore alternatives to the 
prosecutorial protocols based on the amount of narcotics 
seized, the various thresholds.'' It gave him an opportunity to 
comment on that.
    He said, ``I would like to see you disrupt and dismantle 
drug-trafficking organizations through the use of a layered 
approach involving Federal, State, and local law enforcement.''
    He said, ``Please explore the possibility of expanding 
involvement of all DHS agencies and local law enforcement task 
forces, for example, providing sworn DHS personnel who can be 
cross-sworn.''
    ``I want you to increase deployment of counter-drug 
technologies and use off-the-shelf technologies.'' We developed 
a chapter on technologies.
    ``Enhance U.S.-Mexico cooperation regarding joint counter-
drug efforts by encouraging Mexico law enforcement and intel 
agencies to share or provide anti-narcotic information, camera 
feeds, license plate readers, to our State and local Fusion 
Centers.''
    And the last one, he said, ``Authorize Federal field 
personnel more latitude and discretion in making resources 
available to assist with local anti-narcotic and anti-crime 
initiatives.''
    Mr. Leech. So the point I am trying to make is that this 
did not occur in the first strategy, nothing like this. We 
asked for input. Most of it was either via E-mail or phone 
calls. This time we have gotten a little more robust in trying 
to integrate State and local into this strategy.
    Now, we are getting ready to open up the Northern Border 
Counternarcotics Strategy and the Transit Zone Strategy. I 
talked about that in my oral testimony. What you can expect to 
see as we start securing the southwest border, you can expect 
to see increased activity in the transit zone, most likely 
through the northern border, and our office in 2008 submitted 
to you those two strategies. Right now those are sitting at the 
departmental level, and we are working with the White House to 
try to develop those at an interagency level, and we will have 
to build interagency--we will have to expand that to an 
interagency strategy, and we will have to build implementation 
plans around those strategies. And what we have learned by 
developing this Southwest Border Strategy and working with the 
State and local is that we will have to make every effort to 
meet them face to face and include them at every level of State 
and local government to make this an effective strategy. 
Otherwise, it will fail if State and local are not reflected in 
these strategies.
    Senator Pryor. Well, that is helpful. Let me say that last 
month, you were over at the House Homeland Security Committee 
and testified.
    Mr. Leech. Yes, sir.
    Senator Pryor. And you mentioned a recommendation for the 
adoption of criminal penalties for ``persons who construct and 
use a tunnel or subterranean passage'' for illegal trafficking 
of drugs, guns, money, or people.
    Can you talk about that in more detail? Specifically I 
would like to know about what is going on with the tunnels and 
the subterranean passages and what the current penalties are 
for that behavior and the use of those entry methods and what 
you think the penalties should be to be more effective.
    Mr. Leech. Yes, sir. What we have done is--and, again, pre-
decisional, and I will provide you actual legal reading from 
our Office of General Counsel because they provided input. But 
the use of tunnels and subterranean passages is actually a part 
of the strategy. So the ONDCP reauthorization of 2006, part of 
that reauthorization is the requirement to build the strategy, 
and so every 2 years ONDCP has to update the original 2006 
strategy with the executive agents for that.
    But in the most recent reauthorization, we were required to 
address tunnels and subterranean passages. And, again, 
everything is pre-decisional. But I will provide you, if you 
would allow me to, what the Executive Branch will let me 
forward to you very soon.
    Senator Pryor. Yes, I would appreciate that.
    Mr. Leech. Yes, sir
    Senator Pryor. That would be helpful because I think that 
is an important piece that we need to understand and keep an 
eye on.
    Let me ask, Sheriff Gillespie, if I can--we have already 
talked about you would like more resources, you would like more 
Federal money, if possible, and more resources, more people, 
etc. Are there any changes in the Federal law that you think 
would be helpful to your job out in the field, especially as it 
relates to counternarcotics?
    Mr. Gillespie. Not off the top of my head, Senator. I am 
one of those police practitioners that believe we have got a 
lot of laws on the books, and I do not always know that 
creating new ones is the best approach.
    We have to be flexible with that, and I think 
methamphetamine is a really good example of that. The 
byproducts to make methamphetamine were readily available to 
anyone, and when we, as States, restricted the availability of 
those items, it significantly impacted the amount of 
methamphetamine that was being made in our communities. So I 
think it is one of those things you have to be flexible with, 
and off the top of my head, I could not tell you right now of a 
new Federal law I am hoping for.
    Senator Pryor. That is fair enough.
    Ms. Flener, do you have any Federal law that you think we 
ought to change?
    Ms. Flener. No. I would agree with what Sheriff Gillespie 
has said there. We need to work better with the laws that we 
have on the books. We, in Arkansas, were quite successful with 
our precursor limits that we set. That reduced our local labs 
by 50 percent, and then the tracking with an actual online log, 
that reduced--blocking some 12,000 purchases.
    We just need to do a better job and have to break down the 
silos that Senator Ensign mentioned earlier, and that comes 
through dialogue. The things like the Fusion Center I think go 
a long way in creating an environment where we can work 
together.
    Senator Pryor. Good.
    Mr. Gillespie. If I might, Senator.
    Senator Pryor. Yes.
    Mr. Gillespie. My memory just kicked in a little bit. One 
of the challenges that we are projecting to see at the 
enforcement level is our ability to monitor communications with 
encryption and a variety of other sources that have come out.
    Now, I am not prepared at this point to tell you what 
exactly the law modifications would be, but I can tell you, as 
early as yesterday in a meeting that I was in with other agency 
heads, we are projecting in the out-years this to be a 
challenge for us. Unlike a number of years ago, we were readily 
accessible via wiretaps and things available to us, and we are 
seeing that diminish with the advancement of technology.
    Senator Pryor. OK. Good point.
    Mr. Leech, I was pleased to hear you, in response to 
Senator Ensign's questions, mention that ATF and ICE are 
working together on the gun portion of this issue, and I do 
think it is important for us to understand the facts, and the 
facts have been a little bit murky.
    Is it your impression that--and I know you are not an 
expert on this, but maybe if you know you can tell me; or, 
otherwise, you can come back to us--but is it your impression 
that most of the guns going into Mexico are from the United 
States? Or is it your impression that, as Senator Ensign 
alluded, that it is really only a portion of the guns and that 
others are coming in from other countries, and they report a 
pretty high percentage back to us?
    Mr. Leech. Sir, I am not an expert, and I just do not feel 
qualified to provide that because I have seen what would appear 
to be valid arguments on both sides. I have seen arguments for 
the straight 90 percent; then I have seen arguments for, well, 
that 90 percent represents only a small percentage--for 
example, in 2007 I believe there were roughly 15,000 weapons 
seized. Of those, 6,000 weapons were traceable back to the 
United States; the other 9,000 had serial numbers taken off, or 
the gun control law of 1968, the paperwork was not available on 
certain ones of those, or the Federal licensees would have 
already gone out of business. So there was a great portion of 
those that could not be tracked. But I do not know the answer, 
and I am not the expert, so I do not want to mislead you in any 
way or give the impression that I know the answer. But I will 
get back with you with a DHS position on that.
    Senator Pryor. That would be helpful. Like I said, I think 
what Senator Ensign and I would just ask is that we have a 
better understanding of the real facts.
    Mr. Leech. Yes, sir.
    Senator Pryor. That would be very helpful if you could get 
back to us on that.
    Mr. Leech. Yes, sir.
    Senator Pryor. The last thing I have for you, Mr. Leech, is 
a concern about the Mexican drug cartels reaching out to, 
perhaps recruiting U.S. street gang members and gangs, as well 
as U.S. prison gangs, in their operation. Is that a valid 
concern? And can you tell me about that?
    Mr. Leech. Sir, if I could get back to you on that. The 
DOJ, my DOJ counterparts would have, I think, better 
information for you. They have gang units set up over there 
that study that, and anything that I could add would just be my 
own personal opinion or speculation, and I do not think that is 
of any value to you. If I could get back with you, I would 
prefer to do that.
    Senator Pryor. That would be helpful, too, because I think 
the first time I saw some news media reports where my 
impression after reading the news story was that somehow the 
drug cartels were operating in the United States in a lot of 
these cities, and they were doing it largely through gangs. It 
will help us considerably if we know the real state of the 
facts on this matter and to have a better understanding of what 
is really going on there.
    Mr. Leech. I will speak with Mr. Nash and the Deputy 
Attorney General's office and get a DOJ position on that for 
you. As you said, the cartels have reached into 230 cities. 
They have to recruit someone for their supply chain operations, 
for collection and distribution of those drugs. I would assume 
many do come from gangs. I just do not know exact numbers. But 
I will get that information and provide it to you.
    Senator Pryor. A corollary of that question would be: Are 
they also using other organized crime entities that exist in 
these areas? Are they tapping into--I will call it 
``distribution infrastructure,'' for lack of a better word? If 
so, how are they doing this?
    Mr. Leech. Yes, sir.
    Senator Pryor. We have some additional questions for the 
record that I would love for you to answer. I have some, 
Senator Ensign has some, and there are probably a few more 
around the table that do. We will leave the record open for 15 
days, and we will try to get those to you as quickly as 
possible. Then if you could get those back to us within 15 
days, that would be great.
    I really want to thank you all for being here today. This 
is very helpful to us, not only because this has been in the 
news media quite a bit, but also just because it is a real 
national problem, as we have talked about, and it is an 
international problem with our neighbor to the south. So I 
really appreciate you all helping us get a better handle on 
this and understanding the Federal, State, and local 
coordination that needs to happen and helping us identify ways 
that we can be more effective in our fight against these drug 
cartels and these drugs coming into our country.
    So, with that, we will leave the record open. I know that a 
few people will submit either their opening statements, like 
Senator Bennet, or questions, and we will leave the record 
open.
    Thank you very much. We are adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0386.001

[GRAPHIC] [TIFF OMITTED] T0386.002

[GRAPHIC] [TIFF OMITTED] T0386.003

[GRAPHIC] [TIFF OMITTED] T0386.004

[GRAPHIC] [TIFF OMITTED] T0386.005

[GRAPHIC] [TIFF OMITTED] T0386.006

[GRAPHIC] [TIFF OMITTED] T0386.007

[GRAPHIC] [TIFF OMITTED] T0386.008

[GRAPHIC] [TIFF OMITTED] T0386.009

[GRAPHIC] [TIFF OMITTED] T0386.010

[GRAPHIC] [TIFF OMITTED] T0386.011

[GRAPHIC] [TIFF OMITTED] T0386.012

[GRAPHIC] [TIFF OMITTED] T0386.013

[GRAPHIC] [TIFF OMITTED] T0386.014

[GRAPHIC] [TIFF OMITTED] T0386.015

[GRAPHIC] [TIFF OMITTED] T0386.016

[GRAPHIC] [TIFF OMITTED] T0386.017

[GRAPHIC] [TIFF OMITTED] T0386.018

[GRAPHIC] [TIFF OMITTED] T0386.019

[GRAPHIC] [TIFF OMITTED] T0386.045

[GRAPHIC] [TIFF OMITTED] T0386.046

[GRAPHIC] [TIFF OMITTED] T0386.036

[GRAPHIC] [TIFF OMITTED] T0386.037

[GRAPHIC] [TIFF OMITTED] T0386.038

[GRAPHIC] [TIFF OMITTED] T0386.039

[GRAPHIC] [TIFF OMITTED] T0386.040

[GRAPHIC] [TIFF OMITTED] T0386.041

[GRAPHIC] [TIFF OMITTED] T0386.042

[GRAPHIC] [TIFF OMITTED] T0386.043

[GRAPHIC] [TIFF OMITTED] T0386.044

[GRAPHIC] [TIFF OMITTED] T0386.020

[GRAPHIC] [TIFF OMITTED] T0386.021

[GRAPHIC] [TIFF OMITTED] T0386.022

[GRAPHIC] [TIFF OMITTED] T0386.023

[GRAPHIC] [TIFF OMITTED] T0386.024

[GRAPHIC] [TIFF OMITTED] T0386.025

[GRAPHIC] [TIFF OMITTED] T0386.026

[GRAPHIC] [TIFF OMITTED] T0386.027

[GRAPHIC] [TIFF OMITTED] T0386.028

[GRAPHIC] [TIFF OMITTED] T0386.029

[GRAPHIC] [TIFF OMITTED] T0386.030

[GRAPHIC] [TIFF OMITTED] T0386.031

[GRAPHIC] [TIFF OMITTED] T0386.032

[GRAPHIC] [TIFF OMITTED] T0386.033

[GRAPHIC] [TIFF OMITTED] T0386.034

[GRAPHIC] [TIFF OMITTED] T0386.035

                                 <all>

</pre></body></html>
